<html>
<title> - HEARING ON H.R. 2458, THE COMMUNITY PROTECTION AND HAZARDOUS FUELS REDUCTION ACT OF 1997</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  HEARING ON H.R. 2458, THE COMMUNITY PROTECTION AND HAZARDOUS FUELS 
                         REDUCTION ACT OF 1997

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                   SEPTEMBER 23, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-62

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-570 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                    Liz Birnbaum, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 23, 1997..................................     1

Statements of witnesses:
    Albrecht, Michael H., President, Sierra Resource Management, 
      Inc........................................................    12
    Goicoechea, Pete, Chairman, Board of Eureka County 
      Commissioners, Eureka, Nevada..............................    16
        Prepared statement of....................................    66
    Holmer, Steve, Campaign Coordinator, Western Ancient Forest 
      Campaign...................................................     9
        Prepared statement of....................................    34
    Hubbard, James, Director/State Forester, Colorado State 
      Forest Service, Colorado State University..................    13
        Prepared statement of....................................    61
    Joslin, Robert, Deputy Chief, National Forest Systems, United 
      States Forest Service......................................     3
    Wiant, Jr., Harry V., President, Society of American 
      Foresters..................................................    18
        Prepared statement of....................................    71

Additional material supplied:
    Society of American Foresters, prepared statement of.........    74
    Belsky A. Joy, and Dana M. Blumenthal, Effects of Livestock 
      Grazing and Stand Dynamics and Soils in Upland Forests of 
      the Interior West..........................................    38
    Quotes from scientists and others............................    51
    Excerpts from the SNEP Final Report to Congress, etc.........    52



  HEARING ON H.R. 2458, THE COMMUNITY PROTECTION AND HAZARDOUS FUELS 
                         REDUCTION ACT OF 1997

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 1997

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:05 p.m. in 
room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth (chairman of the Subcommittee) presiding.
    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order.
    The Subcommittee is meeting today to hear testimony on H.R. 
2458, the Community Protection and Hazardous Fuels Reduction 
Act of 1997.
    Under rule 4(g) of the Committee rules, any oral opening 
statements in hearings are limited to the Chairman and the 
Ranking Minority Member. This will allow us to hear from our 
witnesses sooner and help members to keep to their schedules. 
Therefore, if other members have statements, they can be 
included in the hearing record under unanimous consent.
    [The statements referred to follows:]
    Mrs. Chenoweth. I would like to welcome our witnesses and 
the members of this Committee today on H.R. 2458, the Community 
Protection and Hazardous Fuels Reduction Act of 1997.
    Last year, wildfires burned over 6 million acres and cost 
nearly $1 billion to fight. These intense fires are now 
frequently occurring in America's backyards. In the early part 
of this century, a clear delineation existed between the urban 
center and what was considered rural America, but this no 
longer exists.
    Over time, cities have grown into suburbs and suburbs have 
blended into what was once considered rural, and this complex 
landscape has come to be known as the wildland/urban interface. 
Forests and grasslands are intermixed with housing, businesses, 
farms and other developments, posing new challenges for fire 
management and fire suppression.
    The intensity of many of the wildfires witnessed in recent 
years are of a magnitude seldom seen before and they are the 
result of unnaturally high fuel loads, caused from years of 
aggressive suppression, forest disease, and grossly overstocked 
stands also contribute to this. This is an unhealthy, dangerous 
condition that must be properly dealt with and dealt with now.
    Last spring, the Subcommittee traveled to several forests 
in the West. The Forest Service provided us with an excellent 
tour which gave us an idea of what can happen if we do not take 
action. In the Boise National Forest alone, the Forest Service 
showed us an area larger than Los Angeles County that had been 
burned from catastrophic fires over the past 5 years.
    During this trip and other trips that I have had a chance 
to take this year, the Forest Service employees working on the 
ground have asked for the authority contained in this bill to 
help deal with the fire danger and forest health problems that 
plague our national forests.
    There is no doubt that something must be done. The question 
is not if our forests will burn from catastrophic fires, but 
when. These intense fires not only threaten the destruction of 
communities, putting human life and property at risk, they also 
damage water supplies, destroy fish and wildlife habitat and 
damage ambient air quality. The unnatural temperatures of these 
fires also damage soil to the degree that it substantially 
reduces the ability of the land to support future stands of 
trees and greatly increases the potential for massive soil 
erosion.
    Regarding the importance of protecting our forests, 
President Teddy Roosevelt, one of the greatest conservationists 
of all time, said this, quote, ``If there is any one duty which 
more than any other we owe to our children and our children's 
children to perform at once, it is to save the forests of this 
land, for they constitute the first and most important element 
in the conservation of the natural resources of this country.''
    Quoting from a Forest Service brochure on forest health, 
the agency states, and I must commend the Des Chutes National 
Forest for their very excellent brochure, and I am very pleased 
to quote from this. It is a very, very outstanding brochure.
    ``The Forest Service has identified the factors that are 
weakening the forests and there are a number of acres affected 
and it will take time, effort, resources and cooperation to 
restore the balance. The Forest Service has a vision, a vision 
of a healthy, balanced, self-sustained forest.'' And I agree 
with this vision, and for this purpose, I introduced the 
Community Protection and Hazardous Fuels Reduction Act of 1997.
    This bill is the result of listening to the on-the-ground 
experts, those men and women who work every day in the Forest 
Service. It provides the Forest Service with a new tool that 
will allow it to help protect our forests, fish and wildlife 
habitat, protect our air quality and water quality, as well as 
human life and our property.
    I look forward to working with the Forest Service and 
interested members as we move this bill forward; and in light 
of last year's severe fire season and the threat that remains 
in our forests, now is the time to properly deal with the 
unnaturally high fuel loads that lead to loss of human life and 
property, as well as most of the environmental damage and 
taxpayer expenditures that result.
    Since the Ranking Minority Member is not here right now, I 
will recognize him when he does come in for his statement, but 
I would like to recognize my colleague from Montana, Mr. Rick 
Hill.
    Mr. Hill. Thank you, Madam Chairman.
    Madam Chairman, first of all, thank you for this hearing 
and thank you for this bill. This is an important issue for 
Montana. In western and central Montana we have many 
communities that would certainly fall within the definition of 
communities where there is urban and forest interface.
    Knowing full well that recent reports indicate that the 
fuel buildups in western Montana are at excessive levels, and 
also in light of the fact Madam Chairman, that we are entering 
an El Nino season, which traditionally has created very dry and 
warm conditions in much of Montana, I think this is a very 
important issue facing Montanans.
    The threat is very real, and this deserves action; and 
Madam Chairman, your bill would seek to reverse the trends of 
the ever-increasing fuel loads in these national forests while 
giving our agencies and local communities the tools to properly 
manage the forests not only for the benefit of wildlife, but 
also for the benefit of our citizens. I think, most 
importantly, it establishes that protection of our citizens and 
our communities are public interest priorities in resource 
management.
    So I thank you very much, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. And now I will 
introduce our first panel of one witness.
    Mr. Robert Joslin, Deputy Chief, National Forest System, 
Washington, DC.
    Mr. Joslin, I am very pleased to have you join us today. 
Please proceed.

   STATEMENT OF ROBERT JOSLIN, DEPUTY CHIEF, NATIONAL FOREST 
             SYSTEMS, UNITED STATES FOREST SERVICE

    Mr. Joslin. Thank you, Madam Chairman and members of the 
Subcommittee. We thank you for the opportunity to appear before 
you today to discuss H.R. 2458, the Community Protection and 
Hazardous Fuel Reduction Act of 1997. I would like to enter the 
written statement into the record and provide summarized 
testimony.
    As you mentioned, I'm Bob Joslin, the Deputy Chief of the 
National Forest System. I also have with me Tom Patten, our 
fuels management specialist here in the Washington office.
    I would like to preface my remarks by saying, we have not 
had sufficient time to fully analyze this bill or to go over it 
with your staff to clarify our interpretation, and we would 
certainly like to do so. The Bureau of Land Management is in 
the same situation, and today's remarks should not be 
interpreted as a representation of their official position.
    As we interpret it, H.R. 2458 would expand contracting 
authorities of the Secretaries of Interior and Agriculture to 
allow them to require treatment of hazardous fuel buildup or 
improvements to noncommodity resources as conditions in 
contracts for the sale of forest products within wildland/urban 
interface area. The bill would also establish authorities for 
forest management project credits to be used by the purchasers 
to offset against their payments.
    While the administration certainly agrees with the stated 
purpose of H.R. 2458, to safeguard communities, lives and 
properties by reducing the threat of wildfires in the wildland/
urban interface, we cannot support the bill as introduced, but 
would certainly be willing to work with you to address these 
issues.
    While H.R. 2458 focuses on forest health in the wildland/
urban interface, this problem requires a broader view and 
extends well beyond the urban interface area. We would like to 
see legislation that provides adequate authorities to deal with 
the urban interface and forest health issues.
    Congress has certainly demonstrated their interest in 
improving the health and fire defensibility of the wildland/
urban interface through a number of legislative proposals and 
restructuring of the Forest Service fire management budget to 
add fuel reduction work to the fire suppression program. There 
are several administrative efforts under way to identify the 
management needs and authorities that fully address the 
protection of wildland/urban interface lands.
    We are currently collecting information necessary to assess 
risk and treatment needs as part of our efforts to develop 
balanced approaches at the landscape scale and developing a 
long-term management strategy based on the data collected. We 
are also currently working in close partnership with local 
communities around the country to assess and reduce the risk of 
wildfire losses. I will share one of these efforts with you 
today.
    The Pike and San Isabel National Forest and Canon City 
District of the BLM in Colorado are working through the State 
forester, who is with us today, with a number of partners and 
communities along the front range of the Rocky Mountains to 
identify opportunities in response to wildland/urban interface 
issues. Their broad coalition of groups and governments called 
the Pikes Peak Wildfire Prevention Partners is working on a 
number of efforts together. They include revamping a 
suppression training facility to improve the efficiency of 
wildfire suppression and to serve as a demonstration area for 
fire-safe building materials; completion of fire protection 
assessments in the three-county area that identify priorities 
for treatment--the U.S. Air Force Academy provided the 
technical expertise and assistance to map the assessment area--
establishment of a slash/mulch project where homeowners can 
bring woody debris from private property fuels treatment for 
disposal. The material is mulched onsite and then made 
available to the public for use in landscaping at no cost. The 
Forest Service is carrying out this effort and similar ones 
under authority of the Cooperative Forestry Assistance Act.
    Both Secretaries have a number of authorities available to 
do restoration and forest health activities similar to those 
identified in the bill. We are currently examining 
administrative options for new ways of accomplishing the 
ecosystem management through the timber sale program, including 
the potential for stewardship contracting. This effort will 
provide valuable information about whether there is a need for 
additional legal authorities.
    While the authorities proposed in H.R. 2458 would allow 
additional improvement activities outside sale area boundaries, 
using timber sale contracts, and increases the opportunities to 
treat fuels not generated by harvest activities, there are 
substantive and technical concerns related to H.R. 2458 that 
merit more analysis and discussion. The three significant most 
significant issues are:
    Section 101(b) appears to exempt the identification of 
wildland/urban interface acres from interdisciplinary and 
environmental analysis and documentation. The administration 
believes that this exemption from the normal application of 
NEPA is unnecessary.
    Section 102(b) establishes a new system of forest 
management project credits and permits their transfer to 
purchase future timber sales. This provision could have 
potentially significant pay-as-you-go implications.
    Section 201(a) authorizes and encourages the Secretaries to 
enter into contracts for grazing when the local county 
commission or other unit of local government certifies that 
there is a danger of fire in the wildland/urban interface area. 
Existing authorities in the use of a contract rather than a 
permit generates some concerns.
    Definitions in section 3 that would be critical to the 
operation of the bill need to be clarified and refined. 
Wildland/urban interface and hazardous fuel buildup definitions 
need some work. The addition of a forest management project 
does not appear to include fuel reduction.
    Finally, the timeframe for development of regulations 
implementing the bill in section 301 is too short and appears 
to conflict with section 102(g) of the bill.
    The Forest Service has received about 50 project proposals 
for the treatment of fuels and in urban interface areas across 
the countries. These proposals may provide the best information 
to date to look at in order to identify the array of possible 
authorities we might want to explore.
    Madam Chairman, while we agree that protection of 
communities, lives and property in wildland/urban interface 
areas is a national priority and agree we need to continue our 
efforts to reduce threats of high-intensity wildfires to both 
human life and property, we cannot support the bill as 
introduced. USDA funding proposals for fiscal 1998 would 
provide sufficient appropriation to address areas of immediate 
concern and to develop the necessary science and procedures to 
assess the long-term situation. Once information from that work 
is available, we can develop long-term strategies and 
implementation proposals on the priority areas. Once we have 
that information, we will know more about the need for 
additional authorities and would like to work with the 
Committee.
    This concludes my statement. I would be happy to answer any 
questions you or other members of the Subcommittee may have.
    [The prepared statement of Mr. Joslin may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Joslin.
    The Chair recognizes Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman.
    Mr. Joslin, do you believe it ought to be a priority in 
terms of forest management to reduce the threat to our 
communities from fire?
    Mr. Joslin. Yes, I do.
    Mr. Hill. Is it your opinion that this bill would give you 
more tools to accomplish that, or would it give you fewer tools 
to accomplish that?
    Mr. Joslin. I think with some work on this bill that it 
would certainly help us and provide tools to help us.
    Mr. Hill. Let me ask you a specific question for Montana.
    Do you have any programs, pilot programs, efforts in 
Montana right now, to identify and reduce life-threatening fire 
hazards from fuel buildup in Montana, anything going on in 
Montana that is specific?
    Mr. Joslin. Yes, sir, there are. We had gone out with a 
letter to all of our units across the national forest system 
and asked them to come up with some potential ideas for dealing 
with this particular effort. In regard to that, in a pilot 
sense, we received over 50 responses. Some of those are from 
Montana. Bitterroot National Forest, region one, has one; the 
Lolo; the Flathead; and another one from the Lolo. And these 
properties are all across the board.
    What we are doing now that we have all of these in, we have 
a group together that are evaluating each one of these 
projects. Some of the projects that are proposed will certainly 
require help from Congress in dealing with some of the laws 
that we would need changed, et cetera, to make them feasible to 
carry out. But we believe that with a pilot program like this, 
which are done in partnerships that vary from tribal 
governments, State forest industry groups to local 
organizations, that we can get a good idea by trying these out 
of what works and what does not work.
    Mr. Hill. Have you examined the cost of being proactive in 
terms of reducing fire hazard by reducing fuels as contrasted 
to what it costs to fight fires? Do you have any studies on 
that to indicate which is more cost-effective?
    Mr. Joslin. We have looked at that, and I think certainly 
over the long term, pay-me-now is certainly better than pay-me-
later. And I think if we can get after the fuel reduction and 
those kinds of things over the long term, that you will find 
that that will pay off.
    Mr. Hill. The Chief, I think, has identified about 40 
million acres of land that are in need of treatment to reduce 
fire fuels. What criteria do you use to measure the fuel 
loading and how do you determine if an area has too much fuel?
    Mr. Joslin. I would probably want to refer that to the 
expert, but the Chief identified the fact that we consider that 
we have about 40 million acres of the national forest system at 
high risk, and those are based on a broad assessment of what 
the fuel loads are out there, the amount of fuel both on the 
ground and the density of stands, how much is standing, and all 
of those things in combination.
    I think that as you go from that broad scale down into the 
local situations more information would be taken to determine 
what that fuel loading is, what you need to do, whether you 
need to combine mechanical with fire or whether you can go in 
and use fire, for example, by itself, or what the other actions 
might be that you might need to take to reduce that to an 
acceptable level.
    Mr. Hill. This bill gives considerable flexibilities to the 
local foresters to make those kinds of decisions. Do you agree 
that is where those decisions ought to be made?
    Mr. Joslin. Yes, I do.
    Mr. Hill. And this bill provides for some exception from 
the NEPA process with regard to identifying those interface 
areas where there could be communities at risk. Do you take 
exception to that provision?
    Mr. Joslin. What I think should be done there, as far as 
identifying areas, there is no need for legislation on changing 
the NEPA requirement there, because there would be none. But I 
think when you get down to those specific areas, that NEPA and 
that process should be used to consider all of the public's 
needs and everything else to come to a decision on exactly what 
you're going to do there.
    Mr. Hill. So let me make sure I understand what you are 
saying. What you are saying is, for whatever the management 
solution would be, obviously you should follow the NEPA 
process--do an environmental assessment, do an environmental 
impact statement. But just for designating areas, saying this 
is a community where there is interface between urban and 
forest areas, it would be duplicative, would it not, to be 
required to go through the NEPA process just to obtain that 
designation?
    Mr. Joslin. The process we use now, we designate areas like 
that without going through the NEPA process.
    Mr. Hill. So there is nothing unusual about that specific 
aspect of this bill?
    Mr. Joslin. No. The only concern there is, when you get 
down to talking about the actions that you might propose to 
take that, those need to go through the NEPA process in our 
opinion.
    Mr. Hill. I would agree with that.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill.
    Mr. Joslin, I am somewhat surprised at the administration's 
position on this bill, especially since the idea for the bill 
had come from Forest Service personnel not only working on on 
the ground but in regional administration. And a similar bill 
was introduced by my predecessor, Mr. LaRocco, and came out of 
the administration, and he did not introduce it in Committee or 
it did not proceed very far. It was a very good concept and it 
probably should have.
    I find it a bit disconcerting that the White House is now 
opposing the bill. But I listened very carefully to your 
testimony, and I would like to know, how would you define 
wildland/urban interface areas?
    Mr. Joslin. Madam Chairman, there are a lot of different 
definitions for that. The one that currently is in use by us is 
the zone where structures and other human development meet or 
intermingle with undeveloped wildland.
    Mrs. Chenoweth. That is right. That is good.
    Approximately how many acres does the Federal Government 
manage in what you would consider wildland/urban interface 
areas?
    Mr. Joslin. I will have to get that figure for you, Madam 
Chairman.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. If you do not like this bill, then how does 
the Forest Service plan to systematically reduce fuel buildups 
on these lands within a 15- to 20-year cycle to protect private 
property and lives?
    I ask this in view of the fact of your most recent letter 
to me with regard to the ice and standing limbs in the 
Panhandle National Forest. The Cooperative Forestry Assistance 
Act was not employed there by your agency. It has not helped 
us. And the danger there continues to grow with every day that 
we are not able to get those damaged trees off the forest 
floor.
    Mr. Joslin. Madam Chairman, I just want to reiterate that 
we support what you are after in your proposal here and that we 
would like to work with you on certain specific elements in the 
bill, because we think that taking these kinds of actions are 
what it is going to take out there to save property, lives and 
all those kinds of things--certainly agree with you on that.
    Mrs. Chenoweth. Thank you very much.
    Tell me, Mr. Joslin, to help me, how would you define 
hazardous fuels buildup?
    Mr. Joslin. Well, there is about 150 different ways, and I 
am not sure which is the correct one, but I think that we need 
to work with you and your staff on one that would be acceptable 
to all of these partners that--you will be talking to some more 
of them later on.
    Mrs. Chenoweth. Tell me how would you define forest 
management projects.
    Mr. Joslin. Forest management projects, to me, are any of 
the projects that take place out either in a national forest, 
or in any other forest as far as that is concerned, any kind of 
activity that would be used to enhance the resource for the 
future.
    Mrs. Chenoweth. Well, what management prescriptions would 
you include as an appropriate forest management project?
    Mr. Joslin. Well, in connection with this particular bill 
that we are discussing here today, and we talked earlier about 
the 40 million acres that we have identified as high risk, we 
have looked at that, and about 25 million acres of that would 
probably have to be treated with some kind of combination of 
mechanical and fire; the remainder, you could probably deal 
with that strictly with fire. And that--you have to remember, 
that is a pretty gross overall assessment.
    Mrs. Chenoweth. You state in your testimony that, quote, 
the administration has not had sufficient time to fully analyze 
this bill; and you stated further that the Forest Service has 
not had an opportunity to go over the bill.
    Who has looked at the bill for the administration? It has 
been there for a couple of weeks.
    Mr. Joslin. We have looked at this bill quite a bit, in 
depth in the last couple of days, in fact, right up to the time 
before coming over here; and we still have some of these 
questions that we would like to work with you and your staff on 
to clarify.
    Mrs. Chenoweth. Well, Mr. Joslin, I appreciate your being 
here, and I appreciate your obvious willingness to work with us 
on the bill. The bill certainly is not cast in stone and we 
remain very open and willing to work with the administration. 
I, however, am not particularly inclined right now to see the 
landscape concept of management employed all at once across the 
national forest. I would like to see it tried out in an area 
that has the most critical concern for the potential damage to 
private property and human life. So that, indeed, is why we 
confined this new concept to its workability based on the needs 
of the urban and rural interface.
    Mr. Joslin. Madam Chairman, I would like to also indicate 
to you that the pilot program that I mentioned, there is one 
proposal on the Clearwater National Forest in your home State 
of Idaho, and we really think that this is an opportunity to 
try a lot of different efforts and use this information to work 
with you and other Members of Congress on some things that we 
need to make these feasible and go ahead and work them.
    Also, I would like to thank you for taking the time to take 
a look at the Boise National Forest and the moonscape that has 
occurred because of the wild, severe, intense fires that we 
have had out there since the mid-1980's.
    Mrs. Chenoweth. It is very impressive, what we see out 
there, and I have extended, and so has Senator Craig, 
invitations to the Secretary and to the Chief to come out; and 
we would also love to have you join them for the same type of 
tour that our leadership team took, and I think that when we 
all see the same thing, we are far better able to work in our 
separate capacities to, together, find solutions to the 
problems that we see.
    So, Mr. Joslin, I really appreciate your being here, and I 
wonder, if time permits, if you would mind staying. We have 
another panel that I will be calling.
    Mr. Joslin. Thank you, Madam Chairman.
    Mrs. Chenoweth. Right now the Chair will recognize the 
second panel and excuse Mr. Joslin.
    We welcome Mr. Harry Wiant, President of the Society of 
American Foresters, and Pete Goicoechea, County Commissioner 
from Eureka, Nevada; Jim Hubbard, Director, Colorado State 
Foresters, Colorado State Forest Service, Colorado State 
University; Michael Albrecht, President, Sierra Resource 
Management, Sonora, California; and Steve Holmer, Western 
Ancient Forest Campaign.
    Gentlemen, if you will all take your place at the table. I 
wonder if you might stand and take an oath, please.
    [Witnesses sworn.]
    Mrs. Chenoweth. Mr. Bob Schaffer from Colorado will be here 
soon. He is still on an airplane, as we speak, but he should be 
in soon; and Mr. John Doolittle wanted also to be back; and Mr. 
Jim Gibbons from Nevada also wanted to come in. It is a very 
busy time as we are nearing the end of the year, and so I know 
where their concerns are; and they personally indicated those 
to me and they will try to join us.
    To begin with, I would like to recognize Steve Holmer from 
the Western Ancient Forest Campaign. Steve.

   STATEMENT OF STEVE HOLMER, CAMPAIGN COORDINATOR, WESTERN 
                    ANCIENT FOREST CAMPAIGN

    Mr. Holmer. Thank you for this opportunity to testify.
    Western Ancient Forest Campaign represents organizations 
and individuals nationwide who are dedicated to protecting 
forests and aquatic ecosystems on the national forests.
    Our organization strongly opposes H.R. 2458 and urges the 
members of this Committee and the House of Representatives to 
oppose the bill and its objectional elements in any form.
    While the environmental community supports protecting lives 
and properties in the wildland/urban interface threatened by 
fire, there is no scientific evidence increasing logging will 
accomplish that goal and, in fact, significant evidence 
suggests the opposite. This bill, if enacted, will allow for 
increased logging that will increase fire risk and threaten 
other important values such as public safety, clean water 
supplies, fish and wildlife habitat, recreational opportunity 
and fiscal responsibility.
    There is no conclusive scientific data that indicates 
forests can be successfully fireproofed by thinning. The Sierra 
Nevada Ecosystem Project reported to Congress that logging 
increases fire hazard by increasing surface dead fuels and 
changing microclimate. Given the lack of confirming scientific 
data, limited pilot projects already under way by the Forest 
Service should be intensively monitored and researched to see 
if the strategy works and under what conditions before it is 
employed on a broader basis.
    Our organization disagrees with some of the fundamental 
assumptions found in the bill's findings section. For example, 
the bill states the forests are experiencing significant 
disease epidemics and insect infestation. The U.S. Forest 
Service testified June 19 before the House Agriculture 
Committee that there is no forest health crisis on the national 
forests. Disease and insects, like wildfire, are natural parts 
of a functioning ecosystem.
    The bill claims inconsistent management and natural effects 
for the buildup of fuels, but there is substantial scientific 
evidence that fire suppression, on which the government spends 
nearly a billion dollars a year, the selective logging of 
larger, more fire-tolerant trees and cattle grazing, which is 
also subsidized by taxpayers, are the primary causes of overly 
dense forest conditions. Nothing in this bill addresses these 
fundamental causes, and in fact, the bill's promotion of cattle 
grazing could make the overstocking and fuels problem worse in 
some regions.
    The NEPA exclusion clause will prevent meaningful public 
participation in designating lands for management activities 
that may be very near communities. For example, landslides and 
flooding, which have killed people and destroyed properties, 
have been linked to road building and clear-cutting. Under this 
bill, there would be no protection or even the opportunity to 
comment for communities or property owners who could be put at 
risk by future logging and road building projects in the 
designated areas that have steep or unstable slopes. Similarly, 
recreation interests would not be allowed to comment on project 
designations that could adversely affect hunting, fishing or 
hiking near their communities.
    WAFC strongly opposes the provision for ``Forest Management 
Credits'' found in section 101(b). The Clinton Administration 
has proposed an end to the purchaser credit system because it 
subsidizes logging road construction, and the House voted to 
cut this program in half. Forest Management Credits would 
create a new subsidy that could lead to even less money being 
returned to the Treasury from a timber program that is already 
losing hundreds of millions of dollars every year. It could 
also detract from the KV fund, which is supposed to pay for 
reforestation of areas that have already been logged.
    The ``Cost Considerations'' provision of 101(f) would also 
allow the Forest Service to ignore economic considerations when 
conducting timber sales under this bill, and specifically 
states that ``No sale shall be precluded because the costs of 
the sale may exceed the revenues derived from the sale.'' This 
section would also obfuscate the extent of money-losing timber 
sales by allowing the Forest Service to exclude these sales 
from any calculations concerning the revenue of the timber sale 
program. In other words, the agency would be granted a blank 
check, and they would not even have to worry about how much 
money is actually being lost to the taxpayer.
    A better approach for funding necessary projects is to 
appropriate the money in the annual Interior appropriations 
process. If the threat to public safety warrants, it is our 
belief Congress should provide adequate funding, not to promote 
the giveaway of the public assets as this bill does.
    We also strongly oppose section 201 concerning removal of 
grasses and forbs because there is significant evidence that 
grazing is harmful to forests and streams, and it contributes 
to overstocking conditions in some forests. I would like to 
submit for the record a scientific report entitled ``Effects of 
Livestock Grazing on Stand Dynamics and Soils in Upland Forests 
of the Interior West'' by A. Joy Belsky and Dana Blumenthal.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Holmer. It comes to the conclusion that grazing is, in 
fact, a major contributor to overstocking and changes in tree 
species composition in our forests. Similar studies conducted 
by the Forest Service have come to similar conclusions for 
Southwest forests.
    In conclusion, the agency has adequate existing authority 
to carry out necessary activities in the interface zone to 
protect lives and property. This bill calls for uncontrolled 
logging that may increase fire risk and threaten other 
important values such as public safety, clean water supplies, 
fish and wildlife habitat and recreational opportunity.
    Western Ancient Forest Campaign will actively oppose H.R. 
2458 and urge the members of this Committee to vote against its 
passage.
    Thank you for this opportunity to testify.
    Mrs. Chenoweth. Thank you, Mr. Holmer. I appreciate your 
testimony.
    [The prepared statement of Mr. Holmer may be found at end 
of hearing.]
    Mrs. Chenoweth. For the next witness, I would like to call 
on Mr. Doolittle to introduce him.
    Mr. Doolittle.
    Mr. Doolittle. Thank you, Madam Chairman. I appreciate your 
holding this hearing and apologize for arriving late.
    I would like to introduce Michael Albrecht, President of 
Sierra Resource Management, a constituent of mine; and this is 
a firm that specializes in forest thinning in our heavily 
overgrown forest in the central Sierras.
    As you know, Madam Chairman, from the field hearing that 
was held recently in Sonora, we have had some excellent 
testimony from Mr. Albrecht and an excellent demonstration, 
where you and I became personally involved in his expensive 
equipment and survived; and he survived without, as far as I 
can tell, injury to the equipment.
    Mrs. Chenoweth. I think he was more at risk than we were.
    Mr. Doolittle. Oh, definitely, and the bystanders, if I 
might say. Anyway, I am pleased to welcome him today, back here 
in Washington, to testify.

 STATEMENT OF MICHAEL H. ALBRECHT, PRESIDENT, SIERRA RESOURCE 
                        MANAGEMENT, INC.

    Mr. Albrecht. Thank you, Madam Chairman and Committee 
members. Greetings from Sonora, California. It truly is a 
pleasure to be here today discussing such a positive piece of 
forest health legislation.
    H.R. 2458, the Community Protection and Hazardous Fuels 
Reduction Act of 1997, is a welcome sign that Congress is ready 
to give professional foresters the tools we need to protect our 
forests, our firefighters and our homes.
    Before I continue, let me give you a quick snapshot of who 
I am and what I represent. Who I am is Mike Albrecht, the 
registered professional forester in both California and North 
Carolina. I am co-owner of a small timber harvesting and timber 
management business. Our company, Sierra Resource Management, 
employs approximately 50 people dedicated to sound forest 
management. We specialize in forest thinning.
    What I represent is the future, and the future of forestry 
in our great Nation is exciting. The potential we have to do 
trend-setting, positive and profitable work in our forests 
keeps me optimistic about the future.
    As in all endeavors, our future has been shaped by our 
past. I am not here today to apologize for past forest 
management practices, because an apology is not appropriate, 
but I would strongly acknowledge that the forest practices 50 
and 100 years ago were abusive. Foresters, environmental groups 
and the general public recognize this fact. The good news is 
that although often contentious, the forest resource dialog of 
the past 50 years has resulted in advanced forest management 
practices and environmental protection that today is second to 
none. It is my strongest professional opinion that regardless 
of political affiliation and regardless of who signs our 
paychecks, we should all be able to agree that American 
forestry is the world's standard.
    Nevertheless, all is not well in the woods. Your field 
hearings held last week in Sonora produced plenty of frank 
discussion. We all heard prominent U.S. Forest Service managers 
and scientists being critical of the state of our forests. They 
were bewildered by the maze of regulations they confront. But 
the most disturbing and disheartening revelation, they 
confided, is that the sense of purpose of the national forest 
is gone.
    Our local media summed the whole situation up with the 
headline, U.S. Forest Policy Broken. I found in private 
business that you can always fix machines, you can build 
bridges and buildings, but repairing a broken spirit and 
defeated attitude is very difficult. After hearing the Forest 
Service testimony, I know we have a difficult task ahead, but I 
also know we can do it.
    Today, I bring you no new statistics about wood supply and 
demand, catastrophic fire, job loss or firefighters killed. You 
have heard all of them by now. Instead, let us take some 
action.
    No. 1, pass H.R. 2458, give us this proactive mandate to 
thin the forests around our communities. I applaud the emphasis 
of this bill that assigns priority to reducing fire risk. The 
management credit idea is innovative. H.R. 2458 dovetails 
perfectly with the California Board of Forestry's recent 
emphasis on community fuel break areas. The timing of this bill 
could not be better.
    No. 2, support Congressman Doolittle's effort to fund a 
watershed level demonstration project on the Stanislaus 
National Forest. This represents an equally innovative approach 
to protecting and enhancing our forest resources.
    No. 3, continue to seek out and support local projects and 
initiatives like the Quincy Library Group's proposal to promote 
forest health, local economy and consensus building.
    These are the efforts to support. The result of your 
support will be healthier forests and safer communities. The 
result of your support will be vibrant wildlife habitat. But 
most importantly your support will renew the optimism and 
spirit within the people whom we charge with managing our 
forests.
    Madam Chairman, I believe that under your leadership we are 
beginning to turn the corner toward better forest policy. Keep 
up the good work, continue to give up your weekends to hold 
field hearings; it will be worth it.
    Mrs. Chenoweth. Thank you, Mr. Albrecht. It was very 
enjoyable to be out there in California.
    Mr. Albrecht. Those seats are still open for both of you on 
that equipment.
    Mrs. Chenoweth. You are very brave. Thank you.
    [The prepared statement of Mr. Albrecht may be found at end 
of hearing.]
    Mrs. Chenoweth. The Chair now recognizes Mr. Hubbard, 
Colorado State Forester.

 STATEMENT OF JAMES HUBBARD, DIRECTOR/STATE FORESTER, COLORADO 
        STATE FOREST SERVICE, COLORADO STATE UNIVERSITY

    Mr. Hubbard. Thank you, Madam Chairman, members of the 
Committee.
    Wildland/urban interface and the fire threat that goes with 
it is the State Forester's No. 1 priority. It has to be. We are 
talking about public safety and firefighter safety. So it is 
not just a choice of management options, it has to be our 
priority. Nothing else carries that kind of burden with it.
    I appreciate your efforts to authorize tools for us to 
address this issue. Private land needs our adjacent Federal 
owners to be responsive, to be good neighbors, if you will. 
Today I would like to address the wildland/urban interface 
hazard and the wildland/urban interface mitigation.
    The hazard first, and I break that into two components, the 
forest conditions and homes in the woods, which, if you will, 
is my simple definition of interface.
    National forests, in the West in particular, are at an age 
where they are ready to regenerate. They have more trees per 
acre than normally occurs. As the result of age and the number 
of trees competing for limited nutrients, they have lower fuel 
moistures, so when they burn, they burn hotter; and we have 
more of them than ever. So we are facing that kind of a 
firefighting situation.
    Fuel buildup: That makes it more difficult to suppress 
these kinds of fires, makes it more costly to suppress these 
kinds of fires, puts more at risk when they burn hotter. It 
does more permanent damage. And we are also experiencing a 
frequency of fire that is not what we have faced in the past. 
Nineteen ninety four to 1996 were well above the 10-year 
average by 30,000, 40,000 fires and by 2.4 million acres. That 
is a lot.
    The homes in the woods are the result of development that 
usually comes from local decisionmaking, local decisionmaking 
that we are not likely to interrupt. So it gives us a 
protection situation that we have to deal with. Little choice. 
We cannot ignore it. And it makes it a priority because of the 
values and the people that are at risk.
    Mitigation, I break into identifying and assessing the 
hazard and land management practices that deal with the 
situation.
    Fire suppression policies and local planning assistance, in 
identification, I have included in a copy of my testimony the 
Colorado red zone map. That is a joint assessment of all of the 
land management agencies in development in the front range, and 
it identifies 3 million acres of front range that is 
susceptible to interface fire and loss. It helps to set 
priorities that identify where we have to work first, where the 
forest conditions and the disturbance regime and the housing 
density dictate we do something that we have not normally done.
    In land management practices, the something that we do is 
reduce fuels; the fuel buildup that now allows for hotter fires 
to carry further and burn more and be more difficult and costly 
to suppress, that regime has to be altered. It has been altered 
by preventing--by the suppression activities that have 
prevented fire from running its normal course in those areas, 
and now we are dealing with how to adjust that situation 
because we have people in the way.
    We are faced with small diameter trees and limited markets, 
small diameter material and limited markets and what to do with 
that. That says if we do not find an innovative way, we are not 
likely to find a commercial method of reducing this hazard. The 
contracting mechanism you proposed to reduce hazard offers 
opportunity.
    The fire suppression has been aggressive in the past 50 
years, 100 years, and that has produced some modifications we 
now have to deal with; but we have little choice but to take 
aggressive suppression action in the interface.
    In land management planning, most States have State 
mitigation plans. Many counties have county mitigation plans. 
So they are starting to face this situation. It is driven a lot 
by suppression costs that they cannot afford, and ruled by 
public protection as well. But the development permitting 
process still is their decision. We can only advise as to what 
mitigation might help that situation.
    States are paying major attention to interface. I mentioned 
it is our priority. The Federal lands, especially the 
intermingled lands, are key components to dealing with this 
problem.
    In 1996 there was a fire west of Denver, Buffalo Creek 
fire. I will run through that quickly. It was 10,000 acres in 
one afternoon. It destroyed homes, but also left significant 
natural resource damage after it was over, it left some 
permanent damage. The regeneration does not occur, because it 
burned too hot. The air and water quality suffered. There was 
flooding following that fire. It put water into a Denver water 
reservoir, and put more sediment into that reservoir than the 
previous 13 years of the operation of that reservoir, in one 
rain storm event; and the citizens were outraged that we have 
not done anything about that.
    That kind of burning will continue. So it is a situation we 
have to address in some way. We have to do what we can. We have 
to do the best we can to redeem our land stewardship 
responsibilities. So I thank you for your efforts in proposing 
methods to do this.
    We need Federal land managers full participation to achieve 
public safety and land stewardship in the interface, 
responsibilities of public ownership all become factors, and 
the State Foresters welcome the opportunity to work with you on 
the bill.
    Mrs. Chenoweth. Thank you, Mr. Hubbard.
    [The prepared statement of Mr. Hubbard may be found at end 
of hearing.]
    Mrs. Chenoweth. The Chair now recognizes the gentleman from 
Nevada, Mr. Gibbons, to introduce our next witness.
    Mr. Gibbons. Thank you, Madam Chairman, and I do have the 
distinct pleasure to introduce somebody from the Second 
District of Nevada to testify on this issue. But before I do 
and with your approval, I would like to say it is an honor for 
me to be here today before your Subcommittee on Forest and 
Forest Health to talk about H.R. 2458, because that bill is of 
the utmost importance in protecting our Nation's forests, 
private property and human life.
    Last year in Nevada we had the worst wildfire forest fire 
season that we have ever had in the history of our State. The 
passage of this legislation is needed in order to help Nevada 
communities reduce the accumulation of wildland fuels on public 
lands which lead to the wildfire destructions of these very 
communities.
    Currently, the unnatural accumulation of dead and dying 
trees, large banks of sagebrush, prolonged drought in the West 
and the proximity of homes to wildland fuels have created a 
very dangerous situation in Nevada. This bill improves 
environmental health and water quality by allowing the use of 
revenue generated from the authorized sales of timber to be 
used for projects to achieve these needed objectives.
    H.R. 2458 is important to the State of Nevada, and perhaps 
one of the most important and qualified persons to speak on it, 
and on Nevada's behalf, is here today, and it is Mr. 
Goicoechea. He is a local, self-employed rancher since 1970. He 
has been the Chairman of the Eureka County commissioners for 
the past 10 years, and since 1994 he has been the Chairman of 
the Humboldt River Basin Authority. He is also an active member 
of the Diamond Complex Working Group, which is a local 
consensus group developing resource management recommendations 
for wild horse and grazing issues. By developing working 
agreements between the BLM, the county and constituents, he has 
and currently does play a leading role in representing the 
people of Eureka County.
    Further exemplifying his background and knowledge as it 
relates to this legislation, he is currently serving as Chair 
of the Nevada World Health since 1988, as well as serving as 
Chair of the Central Nevada Development Authority. A current 
member of the Eureka Recreation Board and Community Development 
Block Grant Committee, this honorable gentleman from Nevada has 
long demonstrated his devotion and dedication to both the 
people of Eureka County and to the entire State as well. His 
insight on this issue will certainly be beneficial to this 
Committee.
    Therefore, it is my distinct honor to introduce to you, 
Madam Chairman of this body, this gentleman from Eureka County, 
Nevada, Mr. Pete Goicoechea.
    Mrs. Chenoweth. Thank you, Mr. Gibbons.
    The Chair recognizes Mr. Goicoechea

STATEMENT OF PETE GOICOECHEA, CHAIRMAN, BOARD OF EUREKA COUNTY 
                 COMMISSIONERS, EUREKA, NEVADA

    Mr. Goicoechea. Thank you, Madam Chairman and thanks, Jim. 
I feel a little bit like a sheep-man at a cattleman's 
convention, coming from a county that does not have any 
commercial timber, but I am here to testify in support of the 
concepts embodied in the Community Protection and Hazardous 
Fuels Reduction Act of 1997.
    This bill does address the severe risk to human life, 
public and private properties, as well as our livestock and 
wildlife in Nevada. The costs associated with wildfire in 
Nevada in terms of taxpayer resources, property loss and 
resource degradation are staggering. In my testimony, there is 
a table that shows that presuppression costs alone, in Nevada, 
incurred by the Bureau of Land Management ranged between $3 and 
$5.5 million between 1990 and 1993.
    The BLM was spending close to $145 an acre in 
presuppression, and the suppression costs are believed to add 
another $130 to $145 an acre. Presuppression is a concern to us 
because we think it does not address the actual fuel reduction 
and the problems. When you put this with the additional $8 
million that was spent in wildland fire activities in 
suppression cost in Nevada alone, it is astronomical.
    Despite incurring high costs of fire management, the 
rehabilitation in Nevada is surprisingly low. In 1985, we 
burned over a million acres of Nevada's grasslands and forests. 
We only rehabbed 55,000 acres. A large percentage of those 
nonrehabbed acres became infested with introduced annuals, 
cheatgrass predominantly. As the frequency of fire increases, 
the landscape will ultimately be dominated by cheatgrass and 
these other annuals, and that, in itself, will continue and we 
feel it will build a time bomb in central Nevada.
    Recognizing the Federal fiscal constraints, we need to look 
at some realistic alternatives. Such alternatives might include 
additional enhanced roles for local and State governments. We 
need to look at forage banks. We would like to look at 
greenstripping. We have a lot of people living out there in the 
brush, and the only way, given our small infrastructure, 
limited fire departments, that we can really control those 
would be to seed these greenstrips into fire retardant--back to 
the native grasses and forbs, which burn slower, and we feel we 
have a better job of controlling.
    Prior to the settlement of the West, fires in these 
sagebrush communities was an important factor. Dr. Burkhardt of 
the University of Nevada said the Pinyon-Juniper stands in 
Nevada appeared to have burned in a 30-year cycle. Our modern 
fire suppression efforts, in conjunction with grazing and 
without rehabilitation, have turned that into a monoculture of 
cheatgrass in central Nevada, whereas the possible seeding 
programs should be the native grasses and forbs which are more 
resilient to fire. They will reduce that catastrophic fire of--
which Congressman Gibbons talked about last year that we had. 
And we were very fortunate to get off without significant loss 
of life.
    Within Eureka County we have extensive stands of pinyon-
juniper. These noncommercial forests pose a significant 
wildfire hazard, and these fires are very costly to suppress, 
given their location. The dense stands of pinyon-juniper seldom 
support any type of understory and forage for wildlife and 
livestock and use a tremendous amount of water.
    In western Oregon, of course, they are a little bigger 
juniper than we have in Nevada, but they use approximately 16 
inches of water a year. When we start talking an acre-foot of 
water, it is a lot of water. Controlled burns might be an 
alternative, and in Nevada today the Bureau is talking about 
the light burn policy, but it seems like a tremendous waste of 
resource. Perhaps we should be exploiting methods to use this 
renewable resource, products that are going to require a new 
and realistic alternative.
    We feel that the wood chip industry in rural Nevada, as we 
look at the pinyon-junipers, we have some estimates that they 
will yield between 12 and 15 ton of biomass per acre out of 
these pinyon-juniper stands. We see new products on the market. 
One of them we have in Eureka is called trex. It is made of 
wheat native beach straw. It is not structurally sound, but it 
can be used for siding and roofing and some subflooring. We 
think there is some real room for those.
    We would promote the harvesting of areas in a mosaic 
pattern that fits with the contour and the topography of the 
land. We would also like to see these seeded down on the urban 
interface. We think we need to--as we do the EAs and EISs on 
these contours or green zones or greenstrips or free zones, we 
think they should include in the environmental assessment--we 
feel that we should have the capability of moving in there with 
machinery and bulldozers and graders that would in fact not 
require the wait-and-see, as we see in Nevada.
    Usually the fire has gone by, the houses are burnt, the 
cows are burnt, and the rangelands are gone before anyone wants 
to make that call that, yes, it is time we moved equipment in. 
So if the greenstrips were, in fact, cleared to the point, and 
they should be treated as farmland if they could be harvested 
for the seed, then in the event of the threat of a fire in an 
urban interface area, we could move in with the mechanized 
equipment and establish the fire break.
    We have witnessed a lot of change in Nevada. The fire 
policies--when I was growing up in Nevada in the 1950's and 
1960's, fire suppression constituted a firebox that was given 
to different ranchers. One of these was designated the fire 
warden. There was not a lot of manpower in the Federal agencies 
then. In the event of a fire, the ranchers and miners came 
together, fought--I would not say truly fought, they more 
herded and shaped the fire until it burned out. At that point, 
if it truly became out of control, miners entered into it and 
they did, in fact, put a fire break around that.
    Today we see retardant bombers, helicopter attack teams, 
hundreds of professional firefighters coming on the scene, some 
of them arriving days after the fire is out.
    We have also seen a significant change in Nevada as far as 
livestock numbers and the reduction of livestock. In Eureka 
County alone over the last 15 years we have seen a 70 percent 
reduction in the number of cattle in the county, from 41,000 to 
13,000 in 1997.
    We appreciate your efforts on this bill, Madam Chairman. We 
think that we can reduce the fuels through livestock grazing. I 
will not speak on commercial timber harvest because again, like 
I said, we do not have any. We believe with this bill you are 
helping to address the many issues and concerns I have 
expressed, and I also wish to thank you for giving me an 
opportunity to testify on this issue. It is very important to 
Nevada and my constituents in Eureka County.
    Mrs. Chenoweth. You are very welcome, Mr. Goicoechea, and I 
am very pleased you could come and join us today.
    [The prepared statement of Mr. Goicoechea may be found at 
end of hearing.]
    Mrs. Chenoweth. The Chair recognizes with great 
anticipation Mr. Harry Wiant, President of the Society of 
American Foresters. Mr. Wiant.

    STATEMENT OF HARRY V. WIANT, JR., PRESIDENT, SOCIETY OF 
                       AMERICAN FORESTERS

    Mr. Wiant. Madam Chairman, it is a real honor to be here 
representing the Society of American Foresters, which many 
people here know is the society that is the largest forestry 
organization in the world, 18,000 members. And also I would 
like to say that it is foresters that represent the most 
successful conservationists in history, and I say that rather 
modestly, of course.
    We are a diverse organization. We cover all facets of 
forest management, and we have worked on the forest health 
issue long and hard. I would like to submit our report, 
``Forest Health and Productivity: A Perspective of the Forestry 
Profession,'' for the record.
    When it comes to forest health, we believe your bill 
addresses in a very farsighted and innovative way most of the 
issues that we face. We truly support the intent of the bill. 
The bill identifies a significant problem, provides land 
managers the opportunity to address the problem, and allows for 
a mechanism to pay for the projects that would be necessary.
    However, we think there are some areas of the bill that 
could be strengthened. We think that perhaps we need a more 
solid definition of the wildland/urban interface; several have 
mentioned that here today. And also on hazardous fuels, as to 
what is hazardous and what would that involve?
    The bill requires the local Forest Service or BLM managers 
to determine the areas in need of fuel reduction. We support 
that because local managers know best what should be done. In 
fact, the more decisionmaking that can be done locally on the 
ground, the better off our forests would be. However, it does 
not encourage, perhaps as much as it should, to get the views 
of the community members, other natural resource professionals, 
and State and local government officials, to identify areas in 
need of treatment.
    The use of the credit system may cause problems. Some will 
try to relate it to road building and so forth, which of course 
is necessary also, but we know that will be attacked. And as 
you know one thing we do not need is more controversy on 
managing our forests in this country.
    But a credit system is warranted. It is used in the private 
sector. But we think it also should be supplemented by 
appropriated funds in certain situations where there will not 
be the opportunity to have credit to do things that need to be 
done. For example, you could think of some of the forests in 
Southern California where they would not have enough timber to 
offset the cost of things that need to be done. There needs to 
be a specific credit allocation process developed.
    For example, you need to have it so the counties get their 
25 percent payments, thus there should be some limits drawn 
around how the credit system works; and of course, that could 
be developed.
    The credit system might work against small operators. Small 
operators do not have the fiscal resources to perform the 
forest management work and then wait for their payments. There 
might be a problem there that perhaps could be addressed in 
some way. Some of these small operators that may not be 
interested in commercial production may actually specialize in 
fuel reduction and do a good job of it. They could be some of 
our best resources for that.
    The management options presented in the grazing portion of 
the bill seem to be a bit too prescriptive. As it stands, the 
bill would not allow the managers to use prescribed burns, 
biological control or selective herbicides as management tools.
    In conclusion, we support the intent of H.R. 2458. It 
certainly is a terrific problem that we have in this country. I 
was just last Friday on the Coconino National Forest, and they 
showed us the biggest fire they had had since the forest had 
been established, over 16,000 acres; and they said they only 
got it stopped where they had thinning done; they could finally 
stop it because it was not moving through the crown as rapidly. 
The opportunity to do that is obviously there and needs to be 
done.
    I want to conclude by saying that the management of nature, 
such as we are talking about here, is not just an option, but 
it is a necessity for human survival. It is a fact that is 
easily forgotten in our urbanized and, unfortunately, 
propagandized population.
    Thank you.
    [The prepared statement of Mr. Wiant may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Wiant. I want to thank you 
very much for that very constructive testimony; and I want to 
thank all the members of this panel for their constructive 
testimony. It was very, very well received, and I look forward 
to working with each and every one of you as we try to move 
this bill to a better position and a stronger bill.
    With that, the Chair recognizes Mr. Gibbons from Nevada for 
questioning.
    Mr. Gibbons. Madam Chairman, I have no questions of these 
witnesses at this time. Thank you.
    Mrs. Chenoweth. The Chair recognizes Mr. Vento. And Mr. 
Vento, if you have an opening statement or anything you would 
like to add to the record----
    Mr. Vento. I will submit an opening statement, Madam Chair. 
I have a lot of questions about this bill and regret that I was 
held up on the floor with another matter.
    In any case, I missed the Forest Service witnesses. I am a 
little confused because I think that the suggestion that we are 
spending a billion dollars--and apparently, that is not being 
spent correctly. As far as I understand this legislation, it 
does not propose to change any of the policies on how the 
billion dollars is spent, at least not on the surface. It 
superimposes some new direction with regards to forestry 
practices vis-a-vis rural or urban forest interface and grazing 
types of policies.
    In fact, as I listened to one of the witnesses, Mr. 
Gibbons' witness, speak about the problems with grazing, I 
thought that was pretty much the conventional wisdom, that 
overgrazing had given rise to pinyon-juniper types of stands, 
and that cheatgrass and sagebrush are a by-product of improper 
grazing policies.
    Of course, if it is on land, that is the case, then you 
have to do something about it, because it does burn so hot that 
it will damage the surface soils. And the overgrazing actually 
causes the forbs to be cut so low that they do not regenerate 
or compete with these types of species, because the cows are 
the cheapest likely to graze in these areas.
    So I am a little perplexed that by contracting, a unique 
idea, it is going to somehow solve the problem. I thought maybe 
resting the cows or taking the cows off it, or changing it and 
keeping the cows off might be part of the answer to that.
    The other issue, I think there are questions that need to 
be answered, and I will turn it over to the panel in a minute 
to respond; but the other issue, of course, if it is an urban/
forest interface, the first thing that should happen with local 
communities, counties and others is to try to reduce the number 
of those interfaces in terms of how we allocate and plan where 
human habitation takes place.
    In fact, the Forest Service, as you know, itself was guilty 
of some of the problems with regards to promoting these types 
of leases or inholdings in years past. But by and large, I 
think it is a major concern. Of course, many persons that have 
these types of homes or ranches frequently want to have the 
forest very close to them. It is sort of an aesthetic question.
    So I think we are talking about broader questions here. I 
understand that, but I think one of the first concerns you will 
run into in terms of trying to reduce that is folks that want 
to have trees around the house. I know I am proud of my three 
or four oak trees in my backyard. I think most folks want some 
trees close, except when they fall on the house, then we are 
not so happy about it.
    I think they have raised a lot of questions. I think it is 
innovative, trying to build these credits and trading them and 
so forth; but I am interested in why we cannot take the 
existing dollars that are in the program and use those to 
better manage. I think we are pretty much on the right track in 
terms of forest health, in terms of thinning and in terms of 
selective tree removal, in terms of replanting, in terms of 
watershed restoration and some of the other issues more 
broadly.
    And I assume the Forest Service's testimony--from what I 
have read, I think they are doing some of this already. But 
there is a supposition or assumption here, I think, in this 
legislation that this is going to be much more aggressively 
pursued.
    As an example, Mr. Wiant, are there any States that have 
actually tried these two policies, this issue of pursuing, for 
instance, on State lands this type of policy with regards to--
that is envisioned in this legislation with regards to grazing?
    Mr. Wiant. Well, for your information, I would route that 
question to Jim Hubbard, since he is a forester.
    Mr. Vento. OK, let us go to him.
    Mr. Hubbard.
    Mr. Hubbard. I am not aware of anything in relation to 
grazing. But in relation to----
    Mr. Vento. I think it is important. Because if we are to 
model this, and there is not a single State actually pursuing 
this type of policy, then I think that is an important problem.
    Mr. Hubbard, with regard to the other, forest interface?
    Mr. Hubbard. Yes. In regard to dealing with the forest 
situation, yes, there are other examples of the same type of 
approach that is proposed here in the contracting mechanism, 
and it is new.
    The interface situation, though----
    Mr. Vento. That is with the credits and everything, so that 
has a lot of different aspects. I did not think you were 
testifying to that.
    But do you think the legislation ought to at least--you are 
dealing with an interface issue between housing and other 
habitation and forests--that you ought to deal with some sort 
of a land use plan or some agreement between the counties and 
other authorities to try to reduce this incident? Would that 
not be one of the highest priority issues?
    Mr. Hubbard. I do not think we are in a position in Federal 
or State government to require it, but I think that should be a 
criterion for selecting our projects.
    Mr. Vento. I think that is right, Madam Chairman. I know I 
am going over a little bit, but I have to leave, and I 
apologize, but the issue is a rather confounding problem. 
Because the truth is, with the type of urban sprawl or 
community sprawl that we have, everybody wants to spread out.
    In fact, we spend a lot of our Forest Service firefighting 
and BLM firefighting money in these areas, trying to protect 
this, and I am not suggesting that is inappropriate, but we 
sure ought to try to reduce that. That should be clear in terms 
of if we are going to take over.
    I have a lot of misgivings about us getting involved in 
terms of the science of this. I think a lot of it gets to be a 
lot more political science than forestry science, but I will 
leave it at that.
    I will submit a statement, and thank you, Madam Chair, for 
giving me an extra minute.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Vento.
    The Chair just cannot resist responding to you. We are 
trying to prevent the $1 billion from having to be spent on 
fighting fire that would normally destroy private property, 
like we just recently saw.
    And as far as grazing is concerned, because of the 
overgrazing in our Western States, there is a new kind of grass 
called cheatgrass that has begun to come in and it creates 
very, very hot fuel. You can graze that cheatgrass in the early 
spring, but if it is not grazed down in the early spring, well, 
then it becomes a real, real dangerous problem.
    So, yes, you are right, this cheatgrass situation is caused 
from overgrazing, and that happened----
    Mr. Vento. Not very nutritious either.
    Mrs. Chenoweth. It sure is not in June or July, but in 
March, April and May it can be quite acceptable.
    So we are trying, Mr. Vento, to initiate the new 
stewardship landscaping concept in Forest Service management on 
a smaller scale, and one that would impact private property 
very positively. So rather than biting off the whole kahuna all 
at once, that is what we are trying to do; and I appreciate 
your comments.
    Mr. Albrecht, I understand that in California there is a 
pilot project going on with the State with this concept; is 
there not?
    Mr. Albrecht. Yes, there is, Madam Chairman. I would like 
to address, if I could, Congressman Vento's comments, if I may 
do so.
    Mrs. Chenoweth. Please do.
    Mr. Albrecht. In talking about the urban/wildland interface 
and how agencies and government work there, the urban component 
is regulated. You are correct in that counties and the State 
often have a lot of say over the urban component and what is 
done around homes. The wildland component is still governed by 
the U.S. Forest Service; they are the ones that really need the 
tool, and they are the ones that really have the complex fuel 
problem on a wide scale.
    So this bill would give them and us as foresters a very 
important tool to manage that Forest Service landscape that 
would then work very well with what the county and State 
agencies are trying to do. They can only do what they are 
allowed to do, which is right around their homes or private 
property. So they work together very well.
    Mr. Holmer. If I may, I want to comment on that. On our 
staff we have a Ph.D. forest ecologist named Tim Ingalesbee, 
and he traveled to Quincy, California, and one of the things 
that he noted is that all around the community of Quincy it is 
private lands that are--the forest lands that are immediately 
about the community and the public lands are actually a fairly 
significant distance from the actual city itself.
    And I think that is the case in many communities. And so to 
really look at this, you do have to look at the private lands, 
and I think you also have to look at the Forest Service's 
national wildlands policy, which I believe they promulgated 
several years ago, which said that the Federal Government does 
not have an obligation to protect every single property, 
particularly if it is indefensible, if it is an indefensible 
area, or if it is made out of inappropriate materials.
    So, clearly, there does need to be some responsibility by 
private landowners and also by property owners that they are 
not putting an undue burden on the public.
    Mr. Vento. Madam Chair, if I can, I know I am trespassing 
on my colleague's time, but I appreciate your tolerance. I have 
no doubt there are instances in California and others where 
there are good examples of where it is needed. I think if we 
are going to set down a policy nationwide with regard to this, 
we need to have at least the expectation that we are not going 
to be counterproductive in terms of the areas that it does not 
do us much good to deal with it if there is simply no response.
    I am aware and I support--I think most of us support State 
and local government doing the determination and zoning, but if 
we are going to come to the table, we at least want someone 
there so we can work with them; otherwise, this policy would 
not work. We would still be spending a billion dollars and 
would not accomplish what you are trying to do.
    Thank you.
    Mrs. Chenoweth. Mr. Albrecht, did you have a response?
    Mr. Albrecht. Thank you. In response to my colleague here, 
and again to Congressman Vento and some of his comments, where 
we need to prevent these fires is well before they get into the 
urban part of the interface. Once they are in the urban 
interface, we lose. Then we are losing homes. The wildland 
portion of this component is where we need to really put our 
effort. That is where the fires get hot and they move quickly.
    I think, at least in the private sector and in working with 
the Forest Service in California, there is total agreement that 
this type of effort is going to do nothing but improve our 
situation. And the Chairman is right that it was a billion 
dollars spent in firefighting, and I think it was in 1994 
actually that we spent a billion dollars fighting fire 
nationally. If we could take a fraction of that money and, in a 
proactive manner, prevent some fire--you talk about reinventing 
government; that is just exactly, I think, what everybody has 
in mind.
    Mrs. Chenoweth. Thank you, Mr. Albrecht.
    Mr. Vento, I always appreciate your leadership.
    Mr. Vento. I would suggest, Madam Chairman, a lot of the 
money spent fighting fires is not really well spent in the 
sense that I think if you have a dry year, you end up spending 
a lot of money putting out fires you are not going to put out. 
That is another problem in terms of that.
    So changing it to look at land-use patterns and some of the 
other issues, prescribed burns, probably would be a marked 
improvement. But we have to get over the idea that we can 
control, in some of these dry years, these fires in these 
areas, because we probably cannot. Cutting down the forest, of 
course, would eliminate the problem, but that is hardly the 
solution from my standpoint.
    Mrs. Chenoweth. And we do not propose that right now.
    The Chair is very pleased to have Mr. Bob Schaffer from 
Colorado join us.
    Mr. Schaffer. Thank you, Madam Chairman, and I particularly 
appreciate the attendance of Mr. Hubbard, who is from my home-

town, back in Fort Collins and, of course, familiar with their 
work back in the State.
    I had a chance to read your statement and have a couple of 
questions for you as well. But before that, I want to point out 
that Mr. Hubbard mentioned Colorado's front range is kind of a 
good case study for this particular bill and an illustration of 
the need for it, and I could not agree more. From a political 
standpoint, it is the kind of place--if you are not familiar 
with Colorado, the front range is where the prairie ends and 
the mountains start and everybody wants to live there. It is 
just a strip from north to south which contains probably at 
least two-thirds of the State's population in that area.
    Every time there is a forest fire of some sort that results 
in some house burning down or loss of life, as has been the 
case in Colorado, everybody wants to know how in the world that 
ever happened and how could we allow conditions to get to that 
stage. Then, when we talk about preventing that from occurring 
again, whether it is at the county or State or Federal level, 
well, then another element of our population decides that that 
is in fact a tragedy, so it is a constant battle that goes on.
    And I think it is a good illustration of how this bill can 
have particular relevance in allowing those who are capable and 
competent in employing scientific principles and a certain 
amount of history, where management is concerned, to prevent 
loss of life and properties and, at the same time, enhance the 
environmental attributes that our State has to offer.
    Mr. Hubbard, if you would comment a little on the 
importance of forest roads in fighting fires, particularly on 
the front range.
    Mr. Hubbard. OK. If we do not have access on the ground, 
then our costs go up tremendously and our losses increase. 
Sometimes that is acceptable in the right situations, the acres 
burned, but in most cases, and in particular on the front 
range, that is not the case.
    Where we have interface along the front range in Colorado, 
access is not that much of a problem. Sometimes the kind of 
access prevents some of the equipment from getting in, so we 
have to take alternative measures. Building new roads to treat 
interface in the front range of Colorado would not be 
necessary.
    Mr. Schaffer. I want you to comment, if you would, just 
about the differences in fire prevention that you see in 
Colorado between the State Forest Service and the U.S. Forest 
Service.
    Mr. Hubbard. I see no differences, and I say that because 
all the agencies have worked together on that. So we are into 
an interagency mode, and while there is some difference in 
terms of initial attack, in Colorado we put that burden on the 
counties; and the counties, through fire protection districts 
and volunteer fire departments, provide for that initial 
attack, and that deals with 90 percent of our problem. When we 
get into larger fire situations, it is everybody working 
together on an interagency basis.
    Mr. Schaffer. This urban/rural interface is the largest 
concern for most foresters who focus on that particular aspect 
of fire control and so on. Just in terms of the costs 
associated with fires in that particular setting and contrasted 
with wildfires that you may see throughout less populated areas 
of the country, could you comment just about the cost 
differences and why a taxpayer ought to be concerned about fire 
suppression and fire prevention in the interface areas?
    Mr. Hubbard. A lot of people that move to the interface do 
not understand what they are getting into in terms of 
protection and that it is more limited than they might have 
experienced in an urban setting. But when the fire starts, they 
do not want to debate that matter; they want the fire put out.
    Any interface fire costs much more than a wildland fire. 
You are bringing all your resources that you can bring to bear 
on suppressing that incident and that usually involves 
expensive air shows that deal with the interface. In the 
wildland, we have learned to modify our suppression tactics. 
All fire is not bad fire, so a modified suppression approach in 
some situations makes sense for the resource and certainly 
makes sense for the cost.
    In the interface, that is not the case. You throw 
everything you have at it and it costs a lot of money.
    Mr. Schaffer. In the time I have left to get a question off 
to you, you mentioned in your testimony, again, the use of 
small contractors for removal and thinning and so on; and the 
marketing and the economics of that are challenging at times, 
particularly in our area up in Larimer County and down in Las 
Animas County, as well, that I represent. What kind of 
incentives do we need to build in to make it a marketable 
proposition for small contractors to be involved in thinning?
    Mr. Hubbard. As you are well aware, our markets are very 
limited, and the acceptance of logging on the front range of 
Colorado is questionable at best, so we have to go about it 
carefully. We have to make sure we have local acceptance. What 
that causes for contractors is problems with a sure supply and 
how much investment they can afford to make.
    So we are dealing with small contractors that are more than 
willing to modify their actions to address this issue. But they 
need some mechanism that does not exist now; and a modified 
contracting approach, as proposed in this bill, holds some 
promise.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. Mr. Schaffer, we will return for another 
round of questioning, if you have further questions.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Kildee.
    Mr. Kildee. I will yield to your side. I have no questions 
at this time, Madam Chair. Thank you very much.
    Mrs. Chenoweth. Thank you. Harry Wiant, I have a couple of 
questions for you. In your testimony, you expressed concern for 
a system that allows for the costs of forest management 
projects to be offset against stumpage payments.
    At a time when appropriated funds are tight, what other 
means would you recommend to fund some of these forest health 
projects?
    Mr. Wiant. I wonder sometimes if it might not be better if 
we charged the users what it really costs. We hear about below-
cost timber sales, mostly propaganda, but certainly nobody can 
challenge the fact we have below-cost recreation, below-cost 
wildlife management, below-cost practically everything else on 
the forest. So if there would be some way we could let people 
pay what it is costing to provide the service that they are 
enjoying, that would help.
    Other than that, I don't know. I think you have come up 
with an innovative approach, and it would be hard to come up 
with another right now.
    Mrs. Chenoweth. In your testimony, you state forest health 
should be determined at the local level, and I agree, and that 
is the intention of this bill, to give local foresters more 
flexibility in managing local forests.
    What else do you think we should do to move decisionmaking 
closer to the ground that maybe is not covered in this bill or 
existing law?
    Mr. Wiant. I have traveled over the U.S. in the last couple 
of years in my office with the Society of American Foresters, 
and talked to an awful lot of foresters that work with the 
Forest Service; and there are many very capable, well-driven 
individuals frustrated with the fact that they just cannot do 
anything--they cannot manage the forest, they cannot do what 
needs to be done. Somehow we have to move from the hierarchical 
system down to the ground level and let people there make the 
decisions that need to be made.
    I worked for the Forest Service years ago, and it operated 
that way; and we had our forests in much healthier and better 
condition under that system than what we have today.
    Mrs. Chenoweth. Mike Albrecht, I have a couple of questions 
here I have noted. When dealing with the timber sale contract, 
is it reasonable to require the purchaser to conduct forest 
management projects in the sale area to remove fuels, improve 
forest health and/or achieve other forest objectives?
    Mr. Albrecht. Well, I would say absolutely yes, Madam 
Chairman. One thing about us private contractors is, once we 
are out there, we like to work, and the more work you give us, 
the more we will do.
    There is some real economy to your proposal, in that if we 
have people and equipment out in the forest anyway, the more 
tasks that can be bundled in one contract, certainly we are 
eager to do the work and certainly it will save the taxpayers 
money. I guess I cannot strongly enough support that concept. 
And the talk and talk and talk over the last 10 or 15 years 
that I have been involved, about trying this versus actually 
doing it, it is very frustrating. I am hoping your bill will 
move us into action.
    Mrs. Chenoweth. In your opinion, are provisions that allow 
for the cost of forest management projects to be offset against 
stumpage payments a practical and reasonable contractual 
mechanism?
    Mr. Albrecht. Yes. You can pay for work several ways. The 
idea of using goods, the timber, for the Service's management 
activities is an excellent idea in that, No. 1, what I like 
about it, it is credit-earned. You have to do the work first to 
earn a credit. That is a good concept. Private industry does 
that all the time. Do the work, then get the credit; do not 
give the credit up front and assume the work will get done. I 
like that part of it.
    I do not know where the money is going to come from 
otherwise. We cannot seem to get enough proposed money for all 
sorts of activities, so let us use the dollars out there on the 
stump. Yes, that is great.
    Mrs. Chenoweth. In following up on one of the comments and 
questions made by my colleague from Colorado, I want to ask you 
a similar question. Can materials that are removed in thinning 
or other activities be utilized as commercial products? Are 
there examples of that around Sonora?
    Mr. Albrecht. Absolutely, yes. There are commercial 
thinning products, which would be small logs, that go to our 
small log mill, and those are converted to lumber.
    There is another important piece of this puzzle, and that 
would be the biomass industry, where we are taking 
nonmerchantable products and chipping them to make cogeneration 
power. As you are aware--and that is probably out of the 
purview of this bill--that whole industry could use some help. 
We need that market in place to make this whole thinning work, 
which would be the chipping, biomass industry.
    But, in general, yes, there are markets out there for the 
small product. There is a pulp market for paper. We need to 
strengthen that biomass market if we can, and then we have a 
real good approach to this.
    Mrs. Chenoweth. Mr. Albrecht, I do not believe that that 
concept is out of the purview of this bill, not at all. As we 
have been working on this bill, we have thought about those 
industries that would benefit from products that are having to 
be chipped up and otherwise hauled out of the forest, the value 
added, multiple use staging of our wood products instead of 
just sheer stumpage that would be made into 2x4s or lumber.
    Mr. Albrecht. Right.
    Mrs. Chenoweth. So I thank you for your comments, and the 
Chair recognizes once again Mr. Gibbons from Nevada.
    Mr. Gibbons. Thank you very much, Madam Chairman. I 
appreciate the opportunity to respond to my colleague, Mr. 
Vento. Unfortunately, he is not here at this point in time.
    I do not believe it was the testimony of Mr. Goicoechea 
that it was overgrazing that caused much of the cheatgrass, and 
I was wondering, Pete, if you wanted to respond to the grazing 
issues that were raised, especially with relation to the pinyon 
forest in Nevada and the grazing issues there.
    And if you would like to respond, I would sure appreciate 
your comments.
    Mr. Goicoechea. Yes, I appreciate that, Congressman 
Gibbons. I wish Congressman Vento was here so I could respond 
in fact to him.
    We agree that we do have some sins and some overgrazing in 
the past we have to atone for, but grazing is not what causes 
the encroachment of pinyon-juniper. Pinyon-juniper is 
predominantly on rocky hillsides with very little soil base 
under them.
    What we see in central Nevada is that generally fire is 
what causes the spread of pinyon-juniper. And the point is, if 
we take the native grasses and the forbs and we get the grazing 
annuals in, they are genetically designed to survive fire. 
Cheatgrass is in place any time you have a fire and you do not 
replace it. We would like to see us get back to the native 
brushes and forbs and grasses. They tend to burn a lot cooler 
than the cheatgrass fires we have.
    The cheatgrass fires, we are all well aware of, and I know 
the chairman is aware of the Kuna fire 2 years ago, these 
cheatgrass fires, they might not seem like a lot of fuel, but 
they burn fast and hot and they kill people.
    No, grazing practices of 100 years ago, we have to live and 
pay for those, that is true, but let us focus on recovering and 
rehabbing those and not continue to build on them with 
wildfire. And the fact is, we are not rehabbing these. Let us 
stop the spread.
    Mr. Gibbons. Mr. Goicoechea, can you give us a direct 
example of how operations under this bill will directly help 
Nevada in its problems with wildland fires?
    Mr. Goicoechea. Well, I think the fiscal issue, Congressman 
Gibbons, is going to be the real driver in it. Again, as Mike 
Albrecht testified, we need a lot of research, especially into 
the biomass industry. We feel that there are significant 
resources in Nevada and in all the intermountain West.
    When we talk about pinyon-juniper stands, we would like to 
see an alternative to just controlled burning, and we would 
like to see both revenues generated from those pinyon-juniper 
stands. And also, on the grazing side, we have a lot of Forest 
Service allotments in Nevada and through the intermountain West 
that are inactive. They are standing grasslands; in some cases, 
they are just strictly, predominantly cheatgrass grasslands. 
They are waiting to explode.
    I think there are revenues that can be generated both from 
contract grazing, like this bill addressed in the contract 
grazing portions; and I think you need to address the old 
preference statements. All of the intermountain West was 
adjudicated from grazing. Be sure, as you contract to graze 
these allotments in the intermountain West, that they address 
the property rights and the water rights of those adjacent base 
properties.
    We are very concerned about the discretion of either 
Secretary doing contract grazing. We think that could 
jeopardize local economies if we see cattle transported out of 
the county and out of the State into an area. A year ago we had 
a permittee from White Pine County, approximately 200 miles 
away, move into a forest allotment on the Toiyabe's. It sounded 
like a good deal to him and to the Forest Service also, but 
when he got there, he did not have any water. He had to haul 
water into the allotment.
    He was also denied access because of private property. He 
was denied some access to the forest. It did not work well for 
him and it was a problem.
    I think grazing is a tool. It removes foliage. It does not 
go up in smoke. It goes through livestock for food production. 
We also feel that at any point that we can reduce that fire 
hazard, it reduces the loads on the local government.
    We have to fight those fires, as Mr. Hubbard said. The 
first line of defense is the county and these small volunteer 
fire departments. We do not have the manpower and the equipment 
to truly wage an assault on the wildland fires, especially with 
the understorage of fuel we are putting out there today.
    Mr. Gibbons. Mr. Wiant, quickly, in the time I have 
remaining, what would you suggest to this Committee as to your 
definition of the wildland/urban interface? What would be an 
adequate stance or defined definition you would suggest for us?
    Mr. Wiant. We have a forest terminology committee hard at 
work which--we hope the publication will come out before long 
and it will address that.
    Some of the things said here obviously make sense. You 
cannot call a cabin in the middle of 100 acres an interface. 
But where do you draw the line? I think that is going to take 
consideration by various interest groups to come up with a 
reasonable and a usable definition. I do not have one for you.
    Mr. Gibbons. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Gibbons.
    Mr. Goicoechea, I wanted to just ask you, indeed, is the 
range not in better condition now than it was even 30 years 
ago?
    Mr. Goicoechea. In our area, yes. Madam Chairman, I think 
the range is improving, and it is dramatically improving. And, 
in fact, I think we are taking the reduction in the number of 
livestock in our county and most areas of Nevada; I think we 
are very rapidly approaching the point that we are, the forest 
and the understory there, we are in a dangerous condition. It 
is a threat. And I am generally concerned about the health and 
welfare of the residents of northern Eureka County and those 
vast grasslands. We do not have livestock to graze it.
    Yes, the range is improving. I know today it is better than 
it was 10 years ago. I cannot speak if we go back 40 or 50 
years ago, but I genuinely believe it is improving.
    Mrs. Chenoweth. Mr. Goicoechea, the cheatgrass is a 
replacement of the fire, but what is the native species usually 
in our high desert areas?
    Mr. Goicoechea. It was predominantly bunchgrass. And, 
again, the nature of bunchgrass is, it grows tall and it always 
is a little green at the crown. When fire runs across it, it 
runs around a little cooler and it tends to have enough green 
there to hold it off.
    And then, of course, when you get into the higher uplands, 
your bitter brush, and it burns very hot; and then, of course, 
the sage itself. But we prefer the sage to the rabbit brush and 
cheatgrass infestations we are seeing coming into these fires 
now.
    Mrs. Chenoweth. Very interesting. Thank you.
    And the Chair recognizes Mr. Schaffer again.
    Mr. Schaffer. Thank you, Madam Chairman. I have a number of 
questions.
    Commissioner Goicoechea, the opponents claim this 
legislation would somehow impair the ability of local 
communities to participate in fire management plans and 
forestry issues. You, as a county commissioner representing 
local government, are here supporting the bill; and I would 
like you just to describe for the Committee your take on that 
issue of local involvement.
    Mr. Goicoechea. I think just to the contrary. I think the 
only way the bill will work, once implemented, will be with the 
involvement of State and local governments. We have to be 
involved. It is the only way the bill can truly work.
    Local government has to have some input, and I would hope 
that--and again I think we are seeing that with all the Federal 
agencies, a more cooperative approach to local government, with 
the Federal agencies working hand-in-hand, and especially in 
something that is as life-threatening as wildfire.
    Mr. Schaffer. For the purpose of clarity, is it your 
position that this bill enhances or constrains local 
participation?
    Mr. Goicoechea. I think it will enhance. It might not look 
like it from the outside looking in, but I think it is the only 
way it will truly work and become effective.
    Mr. Schaffer. Thank you.
    I would like to ask Mr. Holmer, in your testimony you 
mention your belief that the management credit program 
established in this bill will lead to further revenue losses 
from the timber sale program. I guess it is the further timber 
sale losses that I would like to inquire about.
    When do you believe that the timber sale program has lost 
money?
    Mr. Holmer. According to the White House Council of 
Economic Advisers in 1995, the timber sale program lost $234 
million. The Government Accounting Office did an audit that 
showed from 1992 to 1994 $995 million were lost. And we are 
anxiously awaiting the 1996 numbers to be released by the 
Forest Service.
    We understand that it may for the first time show, 
according to their own numbers, there was a loss. It is my 
understanding only one national forest in the country actually 
makes money now, which is the Allegheny National Forest in 
Pennsylvania.
    Mr. Schaffer. I will jump to Mr. Wiant quickly to comment 
on that particular aspect of the cost associated with the 
timber sale program from your perspective.
    Mr. Wiant. Well, it is ironic to me that the same people 
that seem to object to the cost of timber sales, because of 
appeals and legal actions, keep increasing and increasing the 
cost, so it is very hard to ever harvest timber.
    I mentioned that fire out in Arizona. Now they would like 
us to salvage some of the material but they cannot get through 
all the red tape to even do that. So the cost, a lot of 
artificial costs are tacked on.
    But I do not believe that timber sales ever has had a loss, 
and if it has a loss now, it is pretty sad because it has had 
many, many years where the Forest Service returned--used to be 
they said they returned more to the Treasury than they spent. I 
think that was probably true in the 1950's; I do not know if 
that is true today, but I am sure they are not operating at a 
loss as far as the timber itself.
    Mr. Schaffer. The purchaser credits that have been severely 
limited, or cut, during this Congress, it is the view of many 
that that will have an detrimental effect on our ability to 
manage forests, particularly in areas where the value of the 
timber may be getting so close to market value that having 
private contracts to manage those forests may not occur any 
more.
    Secondly, in just remote areas that are difficult to reach, 
with the reduction in the purchaser road credit program, can 
you tell us a little bit about what you think the future holds 
for private contracts that are used in a way to assist the 
Forest Service in managing our forests?
    Mr. Wiant. Testifying here on a previous occasion, I 
indicated I feel that a good road system is probably one of the 
most important tools we have for managing our forests and 
protecting the health of our forests and of our citizens. So we 
have to have a good road system.
    It is distressing to me to see, as I did in this forest I 
was in the other day, where they were saying the Forest Service 
was planning to retire 50 percent of their roads. Seems strange 
to me when we need good roads. The recreationers certainly use 
them a lot. The only people it will be available to are the 
backpackers that may get back in those areas--and I do that 
myself, and I like that, but that is a very small percentage of 
our population. We have to have them accessible to people that 
are on the trail for days.
    Mr. Holmer. If I may comment on that, I would like to read 
a quote from a recent scientific report which states, 
``Intensive timber management contributes to additional fire 
hazards due to greater road access and associated increases in 
human-caused fires, operation of logging equipment, slash 
buildup following logging, and the associated decrease in 
moisture content of forest understories.'' This was from 
DellaSala, Olson and Crane, 1995 Ecosystem Management in 
Western Interior Forests.
    And here is another quote. ``It is after logging that the 
damage from fires is greatest, on account of the inflammable 
and unburned slash.'' T. S. Woolsey, 1911, U.S. Forest Service.
    In our view, intense management and road building actually 
exacerbate these problems and will not solve them.
    Mr. Schaffer. Scientific reports. Which report is that you 
mentioned?
    Mr. Holmer. It is entitled Ecosystem Management in Western 
Interior Forests by DellaSala, Olson and Crane, and I will be 
happy to make that available to you.
    Mr. Schaffer. I would request that report be submitted for 
the record. I am somewhat familiar with it and realize there 
are additional comments you will find in that report that 
actually expound on forest management.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Schaffer. I guess my time has expired. Thank you, Madam 
Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer.
    Do you have any more questions that you would like to ask? 
Or do you, Mr. Gibbons?
    Mr. Gibbons. No.
    Mr. Schaffer. Yes, I do.
    Mrs. Chenoweth. All right, Mr. Schaffer.
    Mr. Schaffer. I wish to go back to the issue on BLM and the 
Forest Service with respect to reducing grasses around 
communities.
    I would like to find out a little more from the 
Commissioner about the interactions that have taken place in 
your specific example, the communications and responses that 
your county has received with the Forest Service or BLM on 
grass management issues.
    Mr. Goicoechea. In his introduction, Congressman Gibbons 
talked about the Diamond Working Group Complex, and this is a 
highly touted group; and the issue when we came together was 
wild horse management, which we could spend another afternoon 
on, no doubt, but with that there was a tour with approximately 
11 permittees of 3 grazing districts and the Commission for the 
preservation of wild horses. Again, it was a horse-driven issue 
rather than a resource issue. But given the number of horses on 
the mountain, there was significant resource damage in that 
area.
    We went on a tour, and it took about 11 months to put the 
program together. Permittees actually took a reduction in 
preference AUMs which--the active AUMs they would have on hand 
and in exchange for the horse groups agreeing to establishing 
an AML number. That AML was approximately 230 head. The census 
count on the mountain was over 1,500. So the permittees took a 
reduction.
    The horses were reduced, and we are at, we hope, a happy 
medium. And now we will start working our way back up, both the 
horse numbers and the cattle numbers. There will probably be a 
period, I would assume, in some of those areas, of a couple of 
years' rest, because the resource damage was that bad.
    No, we do, especially from the BLM perspective in Nevada, 
we are seeing more cooperation from the Federal agencies on the 
ground level. And I think that is the point I was trying to 
make in addressing Chairman Chenoweth's comments, too, that I 
think for any of this to work, it has to come from the bottom 
up. The people closest to it are the ones that truly 
understand.
    I know the comment was made by Mr. Wiant here that one 
cabin out in the forest is not truly urban interface, but I 
guess it depends on who owns that cabin whether it becomes 
urban interface, if you are a politician. Speaking for myself, 
as well as you, we can get leaned on.
    Mr. Schaffer. Mr. Hubbard, I wish to inquire about--with 
respect to catastrophic wildfires in Colorado, or anywhere else 
throughout the country for that matter, on Federal lands, how 
do you propose the Forest Service measure, assess and 
prioritize projects?
    Mr. Hubbard. I think that varies by location, but in 
Colorado, I propose we do what has already been put in place, 
and that is to use the different land management agencies. And 
it takes all of them getting together and deciding because of 
forest condition, because of housing density; and it is that 
group's definition of interface whether it is 20 homes per acre 
or 60 homes per acre. And it depends on the conditions, the 
access, the slope.
    So they make those local decisions as to what they think 
are reasonable. They involve public participation in the 
process. They involve local government in the process. I think 
that is the only way that you come to a reasonable definition 
of what you consider to be your priorities that you want to 
then work on, and everybody is committed to that assessment.
    Mr. Schaffer. Madam Chairman, thank you.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. Again, I want to 
thank the witnesses for their very valuable testimony. I have 
certainly learned a lot.
    My major concern is that we respond to what we have heard 
in testimony and in comments from our Forest Service people; 
that we respond to an outcry across America to protect private 
property, homes and humans. We talk about the $1 billion cost 
to fight fire in just 1 year, but how do you put a price tag on 
a life?
    And because we had an agency that did not feel they had the 
authority to plow a fire break around a little town called 
Kuna, Idaho, we nearly lost that town, and we lost lives in 
that fire; and because we did not have an agency that felt that 
they could graze down some of the Boise foothills and protect 
the homes that are adjacent and encroaching up into those 
foothills. The answer is not always just to stop humans from 
building, but rather, how are the public land managers going to 
protect human lives?
    As we move through progress, another question I have as 
Chairman is, I have listened carefully to Forest Service 
managers across the country; and from the time that I came to 
Congress in 1994 until today, I have heard many of our members 
in the Forest Service open up. And I not only have listened to 
them, but I have sensed their feeling of despair in wanting to 
make this work and the sense of despair they feel, as we all do 
when we see headlines that the Forest Service is broken.
    I do not think it is too late. I think if we do work 
together, we can reason with one another and we can build a 
better future for the wildland/urban interfaces, for the Forest 
Service and for the taxpayers in general. That is my vision. I 
am sure I share it with every one of you who testified.
    Some of us have different thoughts on that, but as long as 
we keep talking and working in the process, I believe our 
thoughts will come together based on good solid facts. So I 
look forward to working with each and every one of you as we 
perfect this bill, and I very much value and appreciate every 
one of your comments.
    I do want to let you know that the record will remain open 
for 3 weeks for any one of you who wishes to supplement your 
testimony; and with that, this hearing is adjourned.
    [Whereupon, at 4 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T5570.001
    
    [GRAPHIC] [TIFF OMITTED] T5570.002
    
    [GRAPHIC] [TIFF OMITTED] T5570.003
    
    [GRAPHIC] [TIFF OMITTED] T5570.004
    
    [GRAPHIC] [TIFF OMITTED] T5570.005
    
    [GRAPHIC] [TIFF OMITTED] T5570.006
    
    [GRAPHIC] [TIFF OMITTED] T5570.007
    
    [GRAPHIC] [TIFF OMITTED] T5570.008
    
    [GRAPHIC] [TIFF OMITTED] T5570.009
    
    [GRAPHIC] [TIFF OMITTED] T5570.010
    
    [GRAPHIC] [TIFF OMITTED] T5570.011
    
    [GRAPHIC] [TIFF OMITTED] T5570.012
    
    [GRAPHIC] [TIFF OMITTED] T5570.013
    
    [GRAPHIC] [TIFF OMITTED] T5570.014
    
    [GRAPHIC] [TIFF OMITTED] T5570.015
    
    [GRAPHIC] [TIFF OMITTED] T5570.016
    
    [GRAPHIC] [TIFF OMITTED] T5570.017
    
    [GRAPHIC] [TIFF OMITTED] T5570.018
    
    [GRAPHIC] [TIFF OMITTED] T5570.019
    
    [GRAPHIC] [TIFF OMITTED] T5570.020
    
    [GRAPHIC] [TIFF OMITTED] T5570.021
    
    [GRAPHIC] [TIFF OMITTED] T5570.022
    
    [GRAPHIC] [TIFF OMITTED] T5570.023
    
    [GRAPHIC] [TIFF OMITTED] T5570.024
    
    [GRAPHIC] [TIFF OMITTED] T5570.025
    
    [GRAPHIC] [TIFF OMITTED] T5570.026
    
    [GRAPHIC] [TIFF OMITTED] T5570.027
    
    [GRAPHIC] [TIFF OMITTED] T5570.028
    
    [GRAPHIC] [TIFF OMITTED] T5570.029
    
    [GRAPHIC] [TIFF OMITTED] T5570.030
    
    [GRAPHIC] [TIFF OMITTED] T5570.031
    
    [GRAPHIC] [TIFF OMITTED] T5570.032
    
    [GRAPHIC] [TIFF OMITTED] T5570.033
    
    [GRAPHIC] [TIFF OMITTED] T5570.034
    
    [GRAPHIC] [TIFF OMITTED] T5570.035
    
    [GRAPHIC] [TIFF OMITTED] T5570.036
    
    [GRAPHIC] [TIFF OMITTED] T5570.037
    
    [GRAPHIC] [TIFF OMITTED] T5570.038
    
    [GRAPHIC] [TIFF OMITTED] T5570.039
    
    [GRAPHIC] [TIFF OMITTED] T5570.040
    
    [GRAPHIC] [TIFF OMITTED] T5570.041
    
    [GRAPHIC] [TIFF OMITTED] T5570.042
    
    [GRAPHIC] [TIFF OMITTED] T5570.043
    
    [GRAPHIC] [TIFF OMITTED] T5570.044
    
    [GRAPHIC] [TIFF OMITTED] T5570.045
    
    [GRAPHIC] [TIFF OMITTED] T5570.046
    
    [GRAPHIC] [TIFF OMITTED] T5570.047
    
    [GRAPHIC] [TIFF OMITTED] T5570.048
    
    [GRAPHIC] [TIFF OMITTED] T5570.049
    
    [GRAPHIC] [TIFF OMITTED] T5570.050
    
    [GRAPHIC] [TIFF OMITTED] T5570.061
    
    [GRAPHIC] [TIFF OMITTED] T5570.062
    
    [GRAPHIC] [TIFF OMITTED] T5570.063
    
    [GRAPHIC] [TIFF OMITTED] T5570.064
    
    [GRAPHIC] [TIFF OMITTED] T5570.065
    
    [GRAPHIC] [TIFF OMITTED] T5570.066
    
    [GRAPHIC] [TIFF OMITTED] T5570.067
    

</pre></body></html>
